                                    SOCIAL SECURITY
MEMORANDUM

Date:   March 29, 2005                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)



        The attached final report presents the results of our audit. Our objectives were to
        determine whether individuals having public responsibilities and positions of trust at the
        Department of Defense have wages posted to the Social Security Administration’s
        Earnings Suspense File and what actions have been taken to resolve these wage
        reporting problems.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       DEPARTMENT OF DEFENSE
         WAGE ITEMS IN THE
       EARNINGS SUSPENSE FILE

   March 2005        A-03-04-14041




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE
Our objectives were to determine whether individuals having public responsibilities and
positions of trust at the Department of Defense (DOD) have wages posted to the Social
Security Administration’s (SSA) Earnings Suspense File (ESF) and what actions have
been taken to resolve these wage reporting problems.

BACKGROUND
Title II of the Social Security Act requires SSA to maintain records of wage amounts
employers pay to individuals. Each year, employers must send Wage and Tax
Statements (W-2 Form) to SSA. This information also includes the names and Social
Security numbers (SSN) of wage earners, and the Employer Identification Number
(EIN). SSA validates the names and SSNs on the W-2s against information in its
records. Wages reported on W-2s containing names and/or SSNs that do not match
SSA’s records cannot be posted to an individual’s earnings record in SSA's Master
Earnings File. Instead, these wages are placed in SSA’s ESF—a repository for
unmatched wages.

For Tax Years (TY) 1997 to 2002, the DOD components submitted over 26 million
W-2s to SSA totaling about $361 billion in wages. For the purpose of our review, the
DOD components consist of the Army, Navy, Marine Corps, Air Force, and other DOD
agencies. We also included the U.S. Coast Guard because it is a special component of
the Navy in wartime; otherwise, it is a bureau of the Department of Homeland Security.
In TY 2002, the components submitted approximately 4.1 million W-2s totaling about
$72 billion in wages.

RESULTS OF REVIEW
Our review found for TYs 1997 to 2002, the DOD components submitted about
6,400 wage items representing about $30 million in wages that were placed in SSA’s
ESF. SSA placed these items in the ESF because: (1) the reported names and/or
SSNs did not match SSA records; (2) a special indicator indicating a potential problem,
such as the earner’s death, was assigned to the record; or (3) the reported SSNs were
invalid. Some of these errors appear to relate to simple input and reporting errors, such
as transposition or typographical errors, name changes, and incorrect dates of birth and
death on SSA records. However, it is also possible that individuals employed at the
DOD components were not using their own SSN and as a result, DOD components may
have employed individuals whose true identity cannot be verified/confirmed by the SSN
they are using.

SSA has taken a number of steps to resolve wage reporting problems and reduce the
size of the ESF including: (1) using various edit processes to locate the owners of


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)         i
earnings; (2) sending correspondence to employers and employees to alert them to
reporting problems; (3) providing assistance to employers through Employer Service
Liaison Officers (ESLO); and (4) offering name and SSN verification services. However,
we found that the DOD components may be unaware of all instances where the
Numberholder later disclaimed reported wages. Furthermore, SSA does not regularly
send the DOD components Educational Correspondence related to suspended wages.
Finally, not all of the DOD components have taken advantage of the Agency’s
verification service. For example, we could not find evidence that the Air Force or
Coast Guard were verifying their employees’ names and SSNs.

CONCLUSIONS AND RECOMMENDATIONS

While we recognize there were legitimate reasons why some of the employees’ names
and SSNs did not match SSA’s records, we also found cases where the discrepancies
could not be explained. Additionally, as long as the wage items remain in the ESF, the
DOD employees may not receive proper credit for their wages, which can affect their
eligibility for and/or the amount of the retirement, disability, or survivor benefits.

To assist SSA in achieving its goal to increase the accuracy of earnings records, we
recommend SSA:

•   Make the necessary corrections for the cases referred to during the audit.

•   Work closely with each DOD component to encourage the use of verification
    services annually.

•   Share with each DOD component all wage items that are placed in the ESF,
    including those wage items assigned special indicators.

AGENCY COMMENTS
The Agency agreed with our recommendations and has initiated corrective actions.
SSA’s comments are included as Appendix H.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)         ii
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

DEPARTMENT OF DEFENSE WAGE ITEMS PLACED INTO THE
EARNINGS SUSPENSE FILE ................................................................................3
  • Mismatched Names and Social Security Numbers.......................................4
  • Special Indicators .........................................................................................5
  • Invalid Social Security Numbers ...................................................................8

MECHANISMS AVAILABLE TO ASSIST EMPLOYERS .......................................9
  • Edit Processes..............................................................................................9
  • Correspondence Sent to Employers and Employees .................................10
  • Employer Service Liaison Officer................................................................11
  • Employee Verification Service ....................................................................11

CONCLUSIONS AND RECOMMENDATIONS.....................................................13

APPENDICES

Appendix A – Acronyms
Appendix B – Scope and Methodology
Appendix C – Total Number of Wage Reports Submitted by Department of
             Defense Components
Appendix D – Department of Defense Wage Items in the Earnings
             Suspense File
Appendix E – Mechanisms Available to Assist Employers with the Wage
             Reporting Process
Appendix F – Criteria for Educational Correspondence
Appendix G – Prior Audit Reports
Appendix H – Agency Comments
Appendix I – OIG Contacts and Staff Acknowledgments




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                                                                           Introduction
OBJECTIVE
Our objectives were to determine whether individuals having public responsibilities and
positions of trust at the Department of Defense (DOD) have wages posted to the Social
Security Administration’s (SSA) Earnings Suspense File (ESF) and what actions have
been taken to resolve these wage reporting problems.

BACKGROUND
Title II of the Social Security Act requires SSA to maintain records of wage amounts
employers pay to individuals. Each year, employers must send a Wage and Tax
Statements (W-2 Form) to SSA by the last day of February (or last day of March if filed
electronically) to report the wages and taxes of their employees for the previous
calendar year. This information also includes the names and Social Security numbers
(SSN) of wage earners, and the Employer Identification Number (EIN).1 SSA validates
the names and SSNs on the W-2s to the Numident.2 Wages reported on W-2s
containing names and/or SSNs that do not match SSA’s records cannot be posted to an
individual’s earnings record in SSA's Master Earnings File (MEF).3 Instead, these
wages are placed in SSA’s ESF—a repository for unmatched wages.

As of October 2004, SSA’s ESF contained approximately 246 million wage items
totaling about $463 billion in wages related to Tax Years (TY) 1937 through 2002 that
could not be posted to individual earnings records. In TY 2002 alone, the ESF
increased by 9 million wage items and by $56 billion in wages.

Department of Defense Components

The DOD’s4 primary mission is to protect and advance the security and national
interests of the United States, to deter aggressors and, if deterrence fails, to defeat any
adversary. In addition, the DOD performs critical humanitarian, peacekeeping, law

1
 The EIN is a 9-digit number assigned by the Internal Revenue Service to sole proprietors, corporations,
partnerships, estates, trusts, and other entities for tax filing and reporting purposes.
2
 The Numident is a record of identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident Master File in SSN order.
3
 The MEF contains all earnings data reported by employers and self-employed individuals. The data is
used to calculate the Social Security benefits due an individual with an earnings record.
4
 For the purpose of our review, the DOD components consist of the Army, Navy, Marine Corps,
Air Force, and DOD agencies. We also included the U.S. Coast Guard because it is a special component
of the Navy in wartime; otherwise, it is a bureau under the Department of Homeland Security.


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                             1
enforcement, and disaster assistance missions, all of which are important to protecting
the national security of the United States. To accomplish its mission, the DOD employs
individuals having public responsibilities and positions of trust. As of Fiscal Year 2003,
the DOD employed 1.4 million men and women in active duty, another 1.2 million in the
reserve and guard components, and approximately 680,000 civilians. For TYs 1997 to
2002, the DOD submitted over 26 million W-2s to SSA totaling about $361 billion in
wages. In TY 2002, the DOD submitted approximately 4.1 million W-2s totaling about
$72 billion in wages. Appendix C provides a summary of the W-2 submissions by each
component.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)          2
                                                         Results of Review
Our review found for TYs 1997 to 2002, the DOD components submitted about
6,400 wage items and about $30 million in wages that were placed in SSA’s ESF.
SSA placed these items in the ESF because (1) the reported names and/or SSNs did
not match SSA records; (2) a special indicator was assigned when the Numberholder
(NH) appeared to be deceased in SSA records, a child who was under the age of 7, or
the NH disclaimed the wages; and/or (3) the reported SSNs were invalid. Some of
these errors appear to relate to simple input and reporting errors, such as transposition
or typographical errors, name changes, and incorrect dates of birth and death on SSA
records. However, it is also possible that individuals employed at the DOD components
were not using their own SSN and, as a result, these components may have employed
individuals whose true identity cannot be verified/confirmed by the SSN they are using.
While SSA has a number of processes to assist employers with wage reporting, we
found that the DOD components may be unaware of all instances where the reported
wages were later disclaimed. Furthermore, SSA does not regularly send the DOD
components Educational Correspondence related to suspended wages. Finally, not all
of the DOD components have taken advantage of the Agency’s verification services.
For example, we could not find evidence that the Air Force or Coast Guard were
verifying their employees’ names and SSNs.

DEPARTMENT OF DEFENSE WAGE ITEMS PLACED INTO THE
EARNINGS SUSPENSE FILE
    Majority of the Suspended        Between TYs 1997 through 2002, we found that the
    Wage Items Were Reported for     DOD components submitted nearly 6,400 wage
    Military Employees both Active   items representing about $30 million in wages to
    Duty and Reserve                 SSA that were placed in the ESF (See Figure 1).5
                                     These wage items related to 4,377 military and
civilian employees as some employees had wages posted to the ESF for multiple
years.6 The majority of the suspended wage items were reported for military employees
who were in either active duty or reserve status. We found that 64 percent (4,060) of
the wage items were for military employees and 36 percent (2,298) were for civilian
employees.




5
 In addition to the approximately 6,400 wage items discussed here, SSA also resolved a number of
suspended wage items over this same period. See the report section titled “Mechanisms Available to
Assist Employers.”
6
    For example, one Army employee had wages posted to the ESF for TYs 1997-2002.



Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                       3
The amount of the suspended wages ranged up to $80,400,7 with an average of $4,707.
The DOD component that submitted the most wage items placed in the ESF was the
Defense Finance and Accounting Service (DFAS)—2,298 wage items (36 percent)
representing $8.8 million in wages. The DFAS includes civilian employees who worked
for the military departments as well as DOD agencies.

Our analysis of the 6,358 wage items determined that SSA placed these items in the
ESF because:

•   59 percent of the reported names and/or SSNs did not match SSA records;

•   28 percent were assigned a special indicator when the NH appeared to be deceased
    in SSA records, a child who was under the age of 7, or the NH disclaimed the
    wages; or

•   13 percent were reported with invalid SSNs.

               Figure 1: Number of Department of Defense Wage Items in
               the Earnings Suspense File (Tax Years 1997 through 2002)
                                                  4%
                                                                 1%
                                              (235 items)
                             5%                              (50 items)
                         (326 items)
                         18%                                                   36%
                    (1,172 items)                                         (2,298 items)




                            36%
                       (2,277 items)



                DFAS       Army        Navy      Air Force     Marines      Coast Guard


MISMATCHED NAMES AND SOCIAL SECURITY NUMBERS

We found that 3,767 wage items (59 percent) were placed in the ESF because the
name and SSN combination did not match SSA records. These wage items
represented approximately $19 million in suspended wages for the 6-year period. The
7
 We only included Federal Insurance Contribution Act (FICA) wages in our review. For example, in TY
2001, our data shows that DOD reported suspended wages for at least one individual with earnings
above $80,400, the maximum taxable earnings subject to FICA. Our population did not include any
suspended wages for individuals with taxable earnings above the TY 2002 FICA threshold ($84,900).


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                    4
Army submitted the most wage items—1,719 wage items and about $6.7 million in
wages—with these types of errors. The name/SSN mismatches can occur for several
reasons such as the wage earners changed their name and did not notify SSA, the
employer reported the name/SSN incorrectly, or individuals deliberately used an SSN
that did not belong to them. We determined that 3,585 of the 3,767 suspended wage
items8 were reported with valid SSNs, but the reported names did not match SSA’s
records. A detailed review for 60 sample items from the population revealed the
following.

•   For 44 wage items, the first and last names reported by the DOD components were
    completely different from the names associated with the SSNs shown in SSA
    records. In some instances, it appears that even the gender did not match. We
    believe these wage items need further investigation to determine if the wage earners
    deliberately used SSNs that belong to others or whether these were simply reporting
    errors. Therefore, we referred these cases to our Office of Investigations (OI) and
    the cases are under review.

•   For 10 wage items, it appears the names reported by the DOD components
    contained typographical and formatting errors. For example, the first name was
    recorded in the data field used to report the last name and the middle name was
    recorded in the data field used to report the first name.9

•   For six wage items, the first and middle names matched SSA records but the last
    names were not the same. It appears that the wage earners changed their names
    but failed to notify SSA.

SPECIAL INDICATORS

We found that 1,759 wage items (28 percent) representing nearly $8.1 million in wages
were placed in the ESF with special indicators. SSA assigns a special indicator when
the NH appears to be deceased in its records – Earnings After Death Report (EADR), a
child who is under the age of 7 – Young Children’s Earnings Record (YCER), or when
the NH disclaims the wages—Scrambled Wage Earnings Discrepancy (SWED). The
DFAS submitted the most suspended wage items with the special indicators—903 wage
items and about $2 million in wages (See Appendix D).




8
 The remaining 182 wage items were reported without the wage earner’s first and/or last name.
Specifically, 173 items did not include a first name, 9 items did not include the first and last name, and
1 item was missing the last name. We believe these reporting errors should have been detected by the
DOD components prior to submitting the wage items to SSA.
9
 SSA has SSN/Name Validation software routines that handle simple name reversals. However, the
sample cases noted above were more complicated and would not have been detected by the routines.


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                           5
Earnings after Death Report

We identified 1,511 wage items totaling about $5.4 million in wages that were assigned
the EADR indicator. SSA assigns this indicator as part of the validation of the Annual
Wage Reporting process. SSA reviews the Numident to determine whether a date of
death is present and if wages have been reported after the year of death. Of the
1,511 wage items, 1,436 wage items10 included dates of death on the Numident that
range from 1942 to 2001. Our detailed review for 50 sample items from this population
of suspended wage items revealed the following.

•     For 29 wage items, it appears the wages were earned the year of death but were not
      reported until the year after death. In a 2002 audit, we reported that while such
      wages are related to legitimate earnings of the deceased, the wages should have
      been reported as miscellaneous income on an Internal Revenue Service (IRS) Form
      1099-MISC rather than as wages on a W-2.11

•     For 12 wage items, it appears the wage earners are alive and were incorrectly listed
      as deceased in SSA records. For example, in one case the wage earner’s Numident
      record included a date of death of July 20, 1966. However, we discovered during
      the audit that SSA reinstated $447,900 in wages from the ESF to his earning record
      for TYs 1997 through 2002. Further, he is currently receiving Title II retirement
      benefits and SSA has not removed the erroneous date of death from his Numident.
      When SSA records a date of death on a Numident record, the NH’s name and SSN
      are provided to the public as part of SSA’s Death Master File (DMF).12 Therefore,
      personal information may have been provided to the public for those individuals who
      were incorrectly listed as deceased on the Numident. We referred these cases to
      SSA for further review.

•     For nine wage items, the evidence indicated that DOD employees used the SSNs of
      deceased NHs for employment. In some instances, the reported names did not
      match names shown on SSA’s Numident. For example, we found that a DOD wage
      earner used his father’s SSN, who had been deceased since 1978, to work in
      TYs 1998 and 1999. The Numident showed that the father and son shared the
      same surname, but their first names did not match. This resulted in $11,700 in
      wages being posted in the ESF. The son’s earnings record showed that in TY 1999,
      he worked for another DOD component, but he used his own SSN. These cases are
      currently with OI and under review.

10
  We discovered that the remaining 75 wage items were placed in the ESF although no date of death
was present on Numident records. We referred 66 of the wage items to SSA for further review. The
other nine wage items have since been reinstated.
11
     SSA OIG, Effectiveness of SSA’s Earnings After Death Process (A-03-01-11035), August 2002.
12
   SSA extracts information from the Numident and creates a DMF each quarter. The DMF is provided to
third-party users via computer tapes. Each month, SSA provides a supplemental tape containing newly
recorded deaths and any changes or deletions to the file.



Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                      6
Young Children’s Earnings Record

SSA assigned a YCER indicator for 40 wage items totaling nearly $300,000 in wages.
Under the YCER process, SSA reviews the Numident for a date of birth (DoB) for the
SSN on each W-2. If a DoB indicates that the NH of the SSN is a child under the age
of 7, the wages are placed in the ESF with a YCER indicator. We discuss our analysis
of the 40 YCER-coded wage items below.

•    For 17 wage items, it appears that SSA did not properly verify the DoBs when the
     wage earners were enumerated. The DoBs included on the Application for Social
     Security Card (Form SS-5) indicated that the applicants were under the age
     of 3 when they signed the form. In some instances, it appears the wage earners
     incorrectly recorded the application date as their DoB and SSA did not detect the
     discrepancies. We referred these cases to SSA for further review.

•    For 14 wage items, the DoBs included on the Numident did not match the DoBs
     shown on the Form SS-5 and the Department of Homeland Security’s (DHS)
     Systematic Alien Verification Entitlements (SAVE) program.13 Based on the DoBs
     shown on the Form SS-5 and SAVE, the wage earners appeared to be at least
     15 years old when they earned the wages and therefore, did not meet the YCER
     criteria. It appears in some instances that SSA staff inputting the SS-5 information
     transposed a digit in the DoB causing the wage earner to appear to be a child under
     the age of 7.14 For example, a wage earner had $38,830 in wages placed in
     suspense for TYs 2000 and 2001 because her DoB was recorded on the Numident
     as January 1, 1995, which made her 5 years old at the time the wages were earned.
     The Form SS-5 indicated that the DoB was actually January 1, 1975, which meant
     she was 25 years old. We referred these cases to SSA for further review.

•    For the nine remaining wage items, it appears that DOD employees used the SSNs
     of children to work for the DOD components. In all cases, we were not able to
     determine whether these individuals used the SSNs deliberately or by accident.
     However, in one case it appears the father deliberately used his 1-year old son’s
     SSN, who shares the same name, to re-enlist in the military. Department of
     Veterans Affairs records showed that the father enlisted in the Army in July 1998
     using his own SSN. He received a dishonorable discharge in August 2000. In
     May 2002, the father apparently used his son’s SSN to re-enlist into the Army.
     Around this same time, the son’s Numident showed that SSA issued nine
     replacement cards within a 6-month period and the father requested at least one of
     the cards. Additional evidence showed that when the father went to prison, he again


13
  The SAVE program provides a method of document verification within an automated environment. This
automated verification process is available to SSA to verify DHS documents presented as evidence of
lawful immigration status or work authorization in the United States.
14
  The incorrect DoBs were recorded in the Numident files, which caused the wage items to be placed in
the ESF.


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                     7
     used his son’s SSN.15 Currently, the father is in prison and is not expected to be
     released until April 2005. We referred these cases to OI for further investigation and
     these cases are under review.

Scrambled Wage Earnings Discrepancy

We identified 208 wage items with about $2.4 million in wages that were assigned a
SWED indicator. SSA assigns this code when wages or self-employment income for
one wage earner has been posted to another wage earner's record. Our review for 20
of the 208 SWED-coded wage items showed that the NHs notified either SSA or the
IRS16 that they did not earn the wages. SSA removed the wages from their earnings
records and placed the wages into the ESF. However, we did not find evidence that
SSA contacted the DOD components regarding the wage reporting problems. Current
SSA policy does not require employers to be notified about wage items that are placed
in the ESF with the SWED indicator. As a result, the DOD components may be
unaware of the issues and cannot assist SSA in resolving these wage reporting
problems.

INVALID SOCIAL SECURITY NUMBERS

We found that 832 wage items (13 percent) with about $2.5 million in wages were
reported with invalid SSNs. DFAS submitted the most wage items containing invalid
SSNs—569 wage items and $1.5 million in wages. In analyzing the wage items, we
determined that 488 wage items were reported with unassigned SSNs. These SSNs
look legitimate, but SSA has never issued these numbers. The remaining 344 wage
items were reported with numbers that resemble an Individual Tax Identification Number
(ITIN). An ITIN is a 9-digit number that begins with a “9” and is issued by the IRS to
non-citizens who need tax identification numbers for tax purposes and who otherwise
do not meet the requirements for being assigned an SSN. We referred these cases to
OI for further investigation as they may indicate possible SSN or ITIN misuse.




15
  The prisoner information was obtained from SSA’s Prisoner Update Processing System. This system
controls, monitors and suspends benefits to inmates who should not be receiving Social Security benefits.
16
  SSA receives an IRS 9409 Form, IRS/SSA Wage Worksheet, from the IRS when a taxpayer disputes
wages. The form also includes the steps taken by the IRS to resolve the issue. We discuss this issue
further in an earlier SSA OIG report, The Social Security Administration’s Processing of Internal Revenue
Service Overstated Wage Referrals (A-03-02-22068), March 2003.



Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                        8
MECHANISMS AVAILABLE TO ASSIST EMPLOYERS

 SSA Reinstated over 23,000        As of July 2003, SSA reinstated from the ESF,
 DOD Wage Items from the           23,494 DOD wage items17 for TYs 1997-2002, as
 ESF during the 6-Year Period      illustrated in Figure 2. SSA has a number of
                                   programs in place to help reduce the ESF’s rate of
growth as well as to reduce its current size. However, we found that the DOD
components did not receive important alerts or always take advantage of SSA services.
For example, SSA does not regularly send the DOD components Educational
Correspondence related to suspended wages. Finally, not all of the DOD components
have taken advantage of the Agency’s verification service. Some of the edits and
processes as they impacted the DOD components are discussed on the following
pages.18
                 Figure 2: Department of Defense Reinstatements for
             Tax Years 1997 through 2002 (23,494 Reinstated Wage Items)
                                                       8%
                                                                    6%
                                       11%                               5%




                               20%


                                                                              30%


                                                 20%
                  Single Select                             ESLO
                  Match to Prior Reinstates                 Other
                  On-Line Reinstate Process                 Unsolicited Reinstating Information
                  Decentralized Correspondence

Note: See Appendix E for a full list of Edits.


EDIT PROCESSES

SSA uses a variety of editing routines and other processes to correct and post many of
the wage items with name and/or SSN mismatches or other problems, both before and
after items are posted to the ESF. Most of the reinstated wage items—7,101 items
representing 30 percent—were reinstated because of SSA’s Single Select edit, which
17
   In a November 2002 SSA OIG report, Status of SSA’s Earnings Suspense File (A-03-03-23038), we
found that the ESF Reinstate File was not designed to capture all reinstated items, but rather captures the
latest entry in a series of reinstatements so that this information could be used in resolving similar
problems in the future. As a result, the number above undercounts the actual number of reinstatements.
18
  See Appendix E for a complete listing of the SSA’s edits and processes used to assist employers in
resolving wage reporting problems.


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                         9
will look at variations on the reported SSN in an attempt to find a correct combination
that matches the reported name. This process can detect simple transposition and
single-edit errors on SSNs.

CORRESPONDENCE SENT TO EMPLOYERS AND EMPLOYEES

SSA sends several types of correspondence to employers and employees to notify
them when the name and/or SSN included on the W-2 does not match SSA records.
These notices are intended to help SSA resolve discrepancies and remind employers
about the importance of providing SSA with correct names and SSNs of employees.
They also encourage employers to correct their records and to use SSA's Employee
Verification Service (EVS) (this is discussed in a later section).

Decentralized Correspondence

SSA reinstated 1,102 DOD wage items (5 percent) as a result of the Decentralized
Correspondence (DECOR) notices. This notice is generated when the wage item fails
SSA’s validation criteria. While these notices are usually mailed to employees, SSA
only sends notices to employers if the employee’s address is unknown.

Earnings after Death and Young Children Notices

SSA sends notices to employers when wage items are placed in the ESF with an EADR
or YCER indicator. If the employer does not respond to these notices within 90 days,
SSA sends a notice to the employee. These notices resulted in 264 wage items being
reinstated with an EADR indicator and 5 wage items with the YCER indicator.

Educational Correspondence

The Educational Correspondence (EDCOR) notice is similar to the DECOR notice
except the notice is sent to the employer based on specific criteria (See Table F-1 in
Appendix F). In TYs 1997 through 2000, SSA sent notices to employers who submitted
10 or more W-2s that could not be processed and the mismatches represented more
than 10 percent of the total W-2s submitted. Our analysis indicates that none of the
DOD components were sent these notices during this period because they did not meet
the second part of the criteria (See Table F-2 in Appendix F for TY 2000).

The DOD components were sent EDCOR notices in TY 2001 because SSA sent notices
to all employers who had at least one wage item posted to the ESF. In TY 2002, SSA
changed its criteria again and now notices are sent to employers who have 10 or more
W-2s that could not be processed and the mismatches represent more than 0.5 percent
of the total W-2s submitted. Again, our analysis indicates that none of the DOD
components were sent these notices because they did not meet SSA’s criteria (See
Table F-2 in Appendix F). Since the DOD components employ individuals who are in
positions of trust and who may have access to national security information, it is
essential that they are notified about the wage reporting problems. DFAS personnel



Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)            10
stated that if SSA provides them with information about the suspended wage items, they
would take appropriate action to resolve the wage reporting discrepancies.

EMPLOYER SERVICE LIAISON OFFICER

SSA reinstated 4,636 DOD wage items (20 percent) with the assistance of ESLOs. An
ESLO is a SSA employee who assists employers and third party providers with wage
reporting issues based on a certain geographical region. The ESLO's responsibilities
include (1) answering employers’ questions on magnetic media submission of W-2s;
(2) conducting wage reporting seminars, in partnership with the IRS, for employers,
payroll service providers, and payroll software companies; and (3) contacting employers
in their region with significant suspended wage items. According to one ESLO, he
provides the DOD components with a listing of wage items posted to the ESF to assist
them with resolving the wage reporting discrepancies.

EMPLOYEE VERIFICATION SERVICE

The purpose of the EVS program is to ensure that employee’s names and SSNs are
valid “before” the employer submits their W-2s to SSA. Depending upon the number of
SSNs they want to verify at a time, employers can call an “800 number” for 5 or fewer,
or submit a paper request of up to 50 names directly to a SSA field office. In addition,
employers who wish to verify 51 or more SSNs all at once are encouraged to register
for the EVS program. The use of EVS is voluntary and can assist employers in
eliminating common SSN reporting errors.19 In a prior report, we found the number of
employers registered for EVS has increased over recent years, but the rate of usage
actually decreased during the same period.20

Employers who register for the EVS program must sign a Privacy Act Statement,
certifying they will maintain the confidentiality of the EVS data. Once registered for
EVS, SSA provides the employer a requester identification number to access the
program. EVS requests can be submitted on magnetic media (tape, cartridge, or
diskette) or paper. For each employee record to be verified through the registered user
process, employers must submit three required elements: employee’s SSN, last name,
and first name. Through EVS, SSA will verify the name, SSN, DoB and gender of an
employee. As of January 2004, SSA may disclose death responses to employers when
the wage earner’s record indicates that they are deceased.21


19
  SSA is piloting a new on-line service called Social Security Number Verification System (SSNVS).
SSNVS is an on-line service that enables employers and submitters to verify employee names and SSNs
with information in SSA’s records for the W-2 reporting purposes. While this service is being piloted
among a few employers, SSA hopes it will encourage more employers to use SSA's name/SSN
verification program for new employees.
20
  SSA OIG, SSA’s Employee Verification Service for Registered Employers (A-03-02-22008),
September 2002.
21
     The Social Security Act, 42 U.S.C. § 205, does not allow State death information to be disclosed.


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                           11
We were able to determine that four of the six DOD components were registered users
of EVS. In TY 2002 these 4 components submitted over 5 million names/SSNs to SSA
to be verified, of which 435,000 could not be verified. In Table 1, we show that the
primary reason the wage items could not be verified was due to an individual using an
SSN that had not been issued by SSA. Apparently, DOD components resolved many of
these discrepancies because we found that fewer wage items were placed in the ESF
for TYs 1997 through 2002. We were unable to locate the Air Force and Coast Guard
on SSA’s list of registered users. We later confirmed with DOD payroll staff that the
Air Force had not been using EVS for a number of years due to system problems within
DOD.

                    Table 1: Unverified DOD Submissions to SSA’s
                  Employee Verification System by Code (Tax Year 2002)
                                       Percent of Unverified Submissions by Code
     DOD Users             Code 1          Code 2           Code 3           Code 4       Code 5


 Army                         44.10%          12.14%           16.03%             0.16%      27.57%


 Navy                          0.07%           6.86%           75.10%             0.05%      17.92%


 Marines                       0.10%          31.81%           20.45%             0.41%      47.23%


 DFAS                          2.37%          22.32%           17.34%             0.33%      57.64%
 All Four DOD
 Components                   39.21%          12.43%           20.52%             0.16%      27.68%
Source: Enumeration Verification System Monthly Report

Verification Codes                        Explanation

        1                                 SSN not in file (never issued to anyone).
        2                                 Name and DoB match; gender does not.
        3                                 Name and gender match; DoB does not.
        4                                 Name matches, DoB and gender do not.
        5                                 Name does not match; DoB and gender not checked.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                        12
                                                   Conclusions and
                                                  Recommendations
While we recognize there were legitimate reasons why some of the employees’ names
and/or SSNs did not match SSA’s records, we also found cases where the
discrepancies could not be explained. Additionally, as long as the wage items remain in
the ESF, the DOD employees may not receive proper credit for their wages, which can
affect their eligibility for and/or the amount of their retirement, disability, or survivor
benefits.

To assist SSA in achieving its goal to increase the accuracy of earnings records, we
recommend SSA:

1. Make the necessary corrections for the cases that were referred during the audit.

2. Work closely with each DOD component to encourage the use of verification services
   annually.

3. Share with each DOD component all wage items that are placed in the ESF,
   including those wage items assigned special indicators.


AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix H for the text of SSA’s
comments.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)          13
                                           Appendices




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                                                                         Appendix A

Acronyms
 DECOR          Decentralized Correspondence
 DFAS           Defense Finance and Accounting Service
 DHS            Department of Homeland Security
 DMF            Death Master File
 DoB            Date of Birth
 DOD            Department of Defense
 EADR           Earnings After Death Report
 EDCOR          Educational Correspondence
 EIN            Employer Identification Number
 EM 2.8         Earnings Modernization 2.8
 ESF            Earnings Suspense File
 ESLO           Employer Service Liaison Officer
 EVS            Employee Verification Service
 IRS            Internal Revenue Service
 ITIN           Individual Tax Identification Number
 MEF            Master Earnings File
 NH             Numberholder
 OIG            Office of the Inspector General
 OI             Office of Investigations
 SAVE           Systematic Alien Verification Entitlements
 SSA            Social Security Administration
 SSN            Social Security number
 SSNVS          Social Security Number Verification System
 SWED           Scrambled Wage Earnings Discrepancy
 TY             Tax Year
 WBDOC          Wilkes-Barre Data Operations Center
 YCER           Young Children’s Earnings Record
 Forms
 Form SS-5      Application for Social Security Card
 Form W-2       Wage and Tax Statement




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                                                                         Appendix B

Scope and Methodology
To accomplish our objectives, to determine whether individuals having public
responsibilities and positions of trust at the Department of Defense (DOD) have wages
posted to the Social Security Administration’s (SSA) Earnings Suspense File (ESF) for
Tax Years (TY) 1997 through 2002 and what actions have been taken to resolve these
wage reporting problems, we:

      •   Reviewed pertinent sections of SSA’s policies and procedures.

      •   Reviewed Office of the Inspector General and Government Accountability Office
          reports and other relevant documents.

      •   Interviewed SSA staff to gain an understanding of the ESF.

      •   Interviewed DOD Inspector General staff to: (1) identify DOD Employer
          Identification Numbers (EIN), (2) determine if any assistance was provided by
          SSA to resolve wage reporting problems, and (3) determine whether the DOD
          components were using SSA’s Employee Verification Service (EVS).

      •   For the 36 EINs used by the DOD components during TYs 1997 through 2002,
          obtained a data extract from the SSA’s ESF and Reinstate File.1

      •   Reviewed and analyzed a random sample of wage items that were identified as
          Earnings After Death Report—50 wage items, Young Children’s
          Earnings—40 wage items, Scrambled Wage Earnings Discrepancy—20 wage
          items, and Mismatch Name/SSN—60 wage items.

      •   Obtained and reviewed SSA’s list of registered users for the EVS for TYs 1997
          through 2002 to determine if the DOD components used the service.

Our audit did not include an evaluation of SSA’s internal controls over the wage
reporting process. We did not focus our efforts on the collection of wage reporting data,
nor did we attempt to establish the reliability or accuracy of such data. The entity
audited was SSA’s Office of Earnings Operations and Administrative Systems under the
Office of the Deputy Commissioner for Systems. We conducted our audit between
December 2003 and July 2004 in Philadelphia, Pennsylvania. We conducted our audit
in accordance with generally accepted government auditing standards.




1
    We did not include DOD contractor employees in our review.


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                                                                                    Appendix C
Total Number of Wage Reports Submitted by
Department of Defense Components
For Tax Years (TY) 1997 to 2002, Department of Defense (DOD) components
submitted over 26 million wage reports to the Social Security Administration (SSA)
totaling about $361 billion in wages. These wages were reported under 36 Employer
Identification Numbers. In TY 2002, the DOD components submitted approximately
4.1 million wage reports totaling about $72 billion in wages.

                    Table: Summary of Wage Reports Submitted
             by Department of Defense Components (Tax Years 1997-2002)

                                                  Tax Years                                       Total
     DOD                                                                                          Wage
  Components           1997        1998        1999         2000         2001         2002       Reports


 Army                2,330,315   1,799,799    1,744,771    1,754,676    1,784,036    1,715,696   11,129,293


 Air Force           1,274,297     819,137      804,205       786,046    827,345      769,306     5,280,336


 Navy                 708,974      688,199      776,504       763,166    627,918      628,417     4,193,178
 Defense
 Finance and
 Accounting
 Service1             495,519      585,864      550,273       507,347    587,992       593096    3,320,091


 Marines              310,196      304,214      301,007       293,343    298,117      294,987     1,801,864


 Coast Guard           54,194       54,790       56,234       248,782     57,616       68,131      539,747


 Total:              5,173,495   4,252,003    4,232,994    4,353,360    4,183,024    4,069,633   26,264,509
Note 1: In this chart, Defense Finance and Accounting Service include civilian employees who worked for
the military departments as well as DOD agencies.

Source: SSA’s Employer Report Query.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                                                                                 Appendix D

Department of Defense Wage Items in the
Earnings Suspense File
Between Tax Years 1997-2002, the Department of Defense (DOD) components
submitted nearly 6,400 wage items and about $30 million in wages to the Social
Security Administration (SSA) that were placed in the Earnings Suspense File.

                          Table: Summary of Wage Items in the
              Earnings Suspense File by Components (Tax Years 1997 - 2002)
                    SSN and Name                                                        Total Suspended
    DOD               Mismatch            Special Indicator        Invalid SSN           Items & Wages
 Components       Wage       Total        Wage      Total       Wage      Total       Total        Total
                  Items      Wages        Items     Wages       Items     Wages       Items        Wages
 Defense
 Finance and
 Accounting
 Service1            826     $5,228,628      903   $2,018,338      569   $1,535,619      2,298    $8,782,585


 Army               1,719    $6,655,454      401   $2,507,863      157     $382,058      2,277    $9,545,375


 Navy                825     $5,197,948      298   $2,109,994       49     $236,705      1,172    $7,544,647


 Air Force           213     $1,032,698       81     $854,681       32      $61,105        326    $1,948,484


 Marines             149     $1,003,888       71     $562,654       15      $97,305        235    $1,663,848


 Coast Guard          35      $222,011         5      $43,490       10     $178,245         50      $443,746

     Total:         3,767   $19,340,627    1,759   $8,097,020      832   $2,491,037      6,358   $29,928,685
Note 1: In this chart, Defense Finance and Accounting Service include civilian employees who worked for
the military departments as well as DOD agencies.

Source: SSA’s Earnings Suspense File.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                                                                                Appendix E

Mechanisms Available to Assist Employers with
the Wage Reporting Process
The Social Security Administration (SSA) has taken steps over the past years to reduce
the size and growth of the Earnings Suspense File (ESF). Below we discuss some of
the various mechanisms available to assist employers, such as (1) various edit
processes and (2) correspondences to employers and employees.

Edit Processes

SSA uses a variety of editing routines and other processes to correct and post many of
the wages items with name/Social Security number (SSN) mismatches or other
problems, both before and after they go into the ESF. See below for a description of the
various edits.

       Overnight Validation: This process identifies name/SSN mismatches on the
        reporting year's paper Wage and Tax Statement (Form W-2) before routine edits
        are performed. Any processed name/SSN mismatches go through the Single
        Select operation described below. Suspended items not corrected by Single
        Select are highlighted in a return electronic transmission from the National
        Computer Center to the Wilkes-Barre Data Operations Center (WBDOC).
        WBDOC technicians look at the image of the original W-2 and re-key any
        incorrect items. They also input the employee address, if available,1 to all
        returned items—whether corrected or not—for later Decentralized
        Correspondence (DECOR) and FERRET activities (see next page).

       Single Select: This operation assumes the reported name is correct and the SSN
        is wrong. Many errors are caused when the name is correct, but there is a
        transposition error in the SSN. The operation creates "ghost" records from
        combinations of numbers in the reported SSN with the reported name. The
        system then screens these records against their related Numident records—the
        Numident file is SSA’s database of all valid SSNs. If one and only one Numident
        matches the reported name, the item is reinstated. This operation prevents about
        2.2 million wage items from going to the ESF annually.

       Operation 30: This process identifies ESF items with valid SSNs and connects
        SSA's Numident records with the ESF item. It assumes the SSN is correct, but
        the name is wrong. Technical staff performs a sight comparison to review
        reported data against on-line SSA records and make judgments to accept wage
        items for Master Earnings File (MEF) posting or send the data back to the ESF.

1
    SSA correspondence would use the employer address when the employee address is not available.


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                      E-1
    SWEEP: SWEEP is an electronic operation that periodically uses SSA’s latest
     system enhancements and validation rules, including the more than 20 routine
     edits used on incoming wages, to remove items from the ESF and reinstate them
     to wage earners’ MEF records.

    Item Correction: This process allows SSA staff to correct the earnings record of
     an individual through a system called Earnings Modernization 2.8 (EM 2.8). The
     EM 2.8 system is a computerized process for adjusting an individual’s earnings
     record thereby helping SSA establish and maintain an accurate and complete
     MEF. This system allows SSA employees to add, change, move, or delete an
     individual’s earnings overnight via on-line interactive screens. This is a paperless
     system—with proofs and rationale recorded electronically after an initial
     inspection by an SSA employee(s).

    Reinstatements from the Internal Revenue Service: While SSA is attempting to
     resolve mismatched names and SSNs within the ESF, the Internal Revenue
     Service (IRS) is performing a similar process. The IRS provides SSA a file
     containing resolved mismatches so that SSA can use this information to locate
     the owners of suspended items in the ESF.

    SSA/IRS Earnings Reconciliation Process: The SSA/IRS earnings reconciliation
     process compares employee wage data submitted to the IRS to wage data
     submitted to SSA. Wage data are submitted to both agencies by employers, their
     representatives, third parties, and agents. When more wages are reported to the
     IRS than to SSA, SSA is concerned that employees' earnings are not recorded
     correctly in the Agency's records. SSA examines these cases and attempts to
     resolve any difference without contacting the employer. When this effort is
     unsuccessful, SSA sends a notice and questionnaire to the employer, requesting
     information to resolve the case. If SSA does not receive a response within
     45 days, the employer is sent a second notice. When no response is received
     after the second notice, the IRS is responsible for contacting the employer and
     may impose penalties, if necessary.

    FERRET: FERRET is a periodic electronic operation that uses SSA and IRS
     records to make reinstatements from the ESF to wage earners’ records. WBDOC
     creates the FERRET file—basically an address file—from the non-responder
     DECOR file. The FERRET file is processed against IRS tax returns for matches
     to address data. Names or parts of names are then propagated from the IRS file
     to create possible reinstatements. These possible matches are then screened
     using SSA’s SSN validation process.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)       E-2
    New Edits: The Agency has also modified its automated processes to better
     identify the Numberholder (NH) related to items in the ESF. SSA stated the new
     processes would use information stored on the earnings and benefits records
     whereas previous internal edits only used the names and SSNs related to the
     suspended wages. Through September 2004, SSA reduced the ESF by
     approximately 7.9 million items, short of its FY 2004 goal of 27.6 million items.
     SSA reported that the principal reason its goal was not met was due to
     underestimating the time needed to design and fully implement a new series of
     very complex matching software routines.

Correspondence to Employers and Employees

SSA sends out millions of letters to employers and employees each year. The four
main letters sent to employers and employees are (1) DECOR, (2) Educational
Correspondence (EDCOR), (3) Earnings After Death (EADR), and (4) Young Children’s
Earnings Record (YCER).

    DECOR: When wage items reach the ESF, SSA’s system generates notices to
     employees and employers. The main purpose of DECOR notices is to query
     employees and employers to resolve SSN and/or name discrepancies. While
     these notices are usually mailed to employees, letters are mailed to an employer
     if there is no address for the employee. SSA reviews the returned DECOR
     notices, validates the information provided, and if appropriate, removes the wage
     item from the ESF for posting to an individual’s MEF record. If individuals do not
     respond to DECOR notices, their information goes through the FERRET
     operation. In 2003, SSA sent approximately 9.5 million DECOR letters to
     employees and employers.

    EDCOR: When SSA processes a W-2 report with a name and/or SSN that does
     not match SSA’s records, it sends a notice to the employer. These EDCOR
     notices state that SSA received wage items that could not be validated. EDCOR
     notices list up to 500 SSNs but do not provide names. SSA requests that
     employers file corrected W-2(s) to correct the error(s). The letters sent to
     employers also specify that mismatches do not imply that incorrect information
     was intentionally provided and that the letter is not a basis, in and of itself, for an
     employer to take any adverse action against an employee.

      SSA is now sending letters to all employers who submitted 10 or more W-2s that
      SSA could not process, and the mismatched forms represent more than
      0.5 percent of the total W-2s in the report. With these thresholds in place, SSA
      estimated it sent 130,000 no-match letters to employers in 2003 (See Appendix F
      for more on this criterion).

    EADR: SSA also has processes in place to detect unusual earnings reports—
     such as instances where earnings relate to someone recorded as deceased on
     SSA's records. Under the EADR process, when a date of death is present on the



Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)           E-3
       Numident, all earning items reported for TYs after the year of death are placed in
       the ESF. The earnings are also transmitted to an EADR investigate file so that
       notices can be printed and mailed to employers and/or earners. SSA sends
       EADR notices to employers and employees. Employer responses are returned to
       SSA for processing. If the employer states the individual was working for them,
       SSA sends a notice to the employee requesting that he or she visit a field office to
       correct his or her earnings information. At the field office, staff interviews the
       individual and verifies his or her identification. If the evidence appears valid, SSA
       personnel reinstate the wages to the proper MEF account. If the employer states
       the wage earner is deceased, SSA informs the employer to refund the employee's
       share of the Social Security taxes to the employee's estate or next of kin, and the
       relevant wages will remain in the ESF. We reviewed the EADR process in a prior
       audit report.2

     YCER: Another unusual earnings pattern monitored by SSA relates to young
      earners. Under the YCER process, SSA checks the Date of Birth (DoB) for the
      SSN on each earnings report. If a DoB indicates that the NH of the SSN is a child
      under the age of 7, the earnings will be placed into the ESF. When the W-2
      reporting process is complete, an YCER investigate file is generated to determine
      whether the earnings belong to the reported SSN; i.e. a child under the age of 7.
      SSA sends YCER notices to employers and employees. Employer responses are
      returned to SSA for processing. If the employer states the NH’s SSN, name and
      DoB agree with SSA’s records, the wages are reinstated to the NH. If the
      employer states the NH’s name and SSN are the same as SSA’s records, but the
      DoB is different, a form is sent to the NH advising him or her to contact the local
      SSA office to correct the discrepancy. If the employer states the name and/or
      SSN is different from SSA’s records, the information is further researched. If the
      employer does not return the form or states that the NH of the SSN did not work
      for them, a letter is sent to the NH of the SSN asking him or her to contact the
      local SSA field office.




2
 SSA OIG, Effectiveness of the Social Security Administration’s Earnings After Death Process
(A-03-01-11035), August 2002.


Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                 E-4
                                                                           Appendix F

Criteria for Educational Correspondence
When the Social Security Administration (SSA) processes a Wage and Tax Statement
(W-2) report with a name and/or Social Security number (SSN) that does not match
SSA’s records, it sends a notice to the employer. These notices, called Educational
Correspondence (EDCOR) state that SSA received wage items that could not be
validated. Criteria for sending these notices are shown below in Table F-1.

                      Table F-1: SSA’s Criteria for Sending EDCOR Notices


     2003           Notices were sent to employers who submitted a wage report
    and later       containing more than 10 Forms W-2 that SSA could not process, and
     years          the mismatched forms represented more than .5 percent of the total
  (Tax Year 2002
     and later)     Forms W-2 in the report.


                    Notices were sent to employers who submitted a wage report where
     2002           the name and/or SSN on even one Form W-2 did not agree with
                    SSA’s records. (This change was not a result of the September 11th
  (Tax Year 2001)   terrorist attacks. The decision to send a letter to every employer with
                    even one "no match" dates back to May 2000.)


     2001           Notices were sent to employers who submitted a wage report
    and prior       containing more than 10 Forms W-2 that SSA could not process, and
      years         the mismatched forms represented more than 10 percent of the total
  (Tax Year 2000
     and prior)     Forms W-2 in the report.


Our analysis indicates that while Department of Defense (DOD) components would
have received such notices for Tax Year 2001, the year SSA liberalized its policy,
EDCOR would not have been sent to DOD components in TYs 2000 or 2002 due to the
threshold set by SSA (See Table F-2.)




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                F-1
                           Table F-2: Criteria for Educational
                   Correspondence Notices for Tax Year 2000 and 2002

                               Tax Year 2000                                   Tax Year 2002
                               Criteria: 10%                                    Criteria: .5%

                                   Total         Percent of                       Total         Percent of
                 Total W-2s      Suspended        W-2s in         Total W-2s    Suspended        W-2s in
     DOD          Reported         Wages         Suspense          Reported       Wages         Suspense

 Army              1,754,676         1,368          0.08%          1,715,696        1,253        0.07%

 Air Force          786,046            215          0.03%           769,306          375         0.05%

 Navy               763,166          1,121          0.15%           628,417          520         0.08%
 Defense
 Finance and
                    507,347            942          0.19%           593,096          706         0.12%
 Accounting
 Service1
 Marines            293,343            146          0.05%           294,987          176         0.06%

 Coast Guard        248,782             34          0.01%            68,131           20         0.03%

 Total:            4,353,360          3,826                        4,069,633        3,050

Note 1: In this chart, Defense Finance and Accounting Service include civilian employees who worked for
the military departments as well as DOD agencies.

Source: SSA’s Employer Report Query and Earnings Suspense File.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)                           F-2
                                                                         Appendix G

Prior Audit Reports
Security r Related to the Earnings Suspense File
           Social Security Administration, Office of the Inspector General
                   Reports Related to the Earnings Suspense File
   Common
 Identification                                                                    Date
    Number                             Report Title                               Issued
                    Reliability of the Data Used to Measure the
A-03-00-10004                                                                    May 2001
                    Accuracy of Earnings Posted
                    Effectiveness of the Social Security
A-03-01-11034       Administration's Decentralized Correspondence                June 2002
                    Process
                    Effectiveness of the Social Security
A-03-01-11035                                                                August 2002
                    Administration’s Earnings After Death Process
                    The Social Security Administration’s Employee
A-03-02-22008                                                             September 2002
                    Verification Service for Registered
                    Status of the Social Security Administration’s
A-03-03-23038                                                              November 2002
                    Earnings Suspense File
                    The Social Security Administration’s Processing
A-03-02-22068       of Internal Revenue Service Overstated Wage              March 2003
                    Referrals




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                                                                         Appendix H

Agency Comments




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                                        SOCIAL SECURITY

MEMORANDUM                                                                            33344-24-1183


Date:      March 10, 2005                                                      Refer To: S1J-3

To:         Patrick P. O’Carroll
            Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of Inspector General (OIG) Draft Report, “Department of Defense Wage Items in
            the Earnings Suspense File” (A-03-04-14041)--INFORMATION

           We appreciate OIG's efforts in conducting this review. Our comments to the
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions may be referred to
           Candace Skurnik on extension 54636.

           Attachment:
           SSA Response




           Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)         H-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“DEPARTMENT OF DEFENSE (DOD) WAGE ITEMS IN THE EARNINGS SUSPENSE
FILE (ESF)” (A-03-04-14041)

We appreciate the opportunity to comment on the draft report and OIG’s continuing
efforts to suggest improvements to the Agency’s handling of wage items that are placed
in the ESF. As noted in the report, the Agency has taken and continues to take steps to
resolve wage reporting problems and reduce the size of the ESF.

The Agency continues to present the Employer Verification Service (EVS) as a tool to
the employer community during tax forums and payroll conferences. We encourage
employers to use our verification service and suggest they integrate it into their routine
business process as individuals are hired, as well as annually prior to the submittal of
wage and tax statements. In the past, DOD payroll representatives have attended our
National Payroll Reporting Forum (jointly sponsored with the Internal Revenue Service)
and local wage reporting conferences conducted by our Regional Employer Service
Liaison Officers (ESLO). Additionally, for several years our ESLOs have assisted DOD
during the wage reporting process by tracking their reported wage information to
completion and sharing any issues with DOD for resolution.

Recommendation 1

Make the necessary corrections for the cases that were referred during the audit.

Comment

We agree. We will obtain a list of those Social Security numbers (SSN) cited in the
report and take the necessary actions.

Recommendation 2

Work closely with each DOD component to encourage the use of verification services
annually.

Comment

We agree. The use of the verification service will greatly assist DOD in avoiding wage
items being placed in the ESF. We have already taken actions to discuss this issue
with representatives from the Defense Finance and Accounting Service (DFAS) for all
branches of the military. Each DFAS representative was provided the contact
information for their local Regional ESLO, who may assist them in wage reporting
issues and provide additional information on EVS. We will continue to follow-up with
each DFAS representative to assist in resolving their wage reporting issues.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)          H-2
Recommendation 3

Share with each DOD component all wage items that are placed in the ESF, including
those wage items assigned special indicators.

Comment

We agree. Based on our teleconference with DFAS (as mentioned in recommendation
2), we have initiated a process with each DFAS representative to investigate their ESF
items. We supplied DFAS with all of their items appearing in the ESF, including those
with special indicators. We will continue to work closely with each DFAS representative
to track and resolve these wage items in addition to any future wage items.



[SSA also provided technical comments which have been addressed, where
appropriate, in this report.]




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)      H-3
                                                                           Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter E. Bayer, Director (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager (215) 597-0572

Acknowledgments

In addition to those named above:

   Virginia Montelpare, Auditor-in-Charge

   Mike Thomson, Senior Auditor

   Richard Devers, IT Specialist

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-03-04-14041.




Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.


                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.


                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
